Audit Report




OIG-12-053
SAFETY AND SOUNDNESS: Failed Bank Review of American
Eagle Savings Bank, Boothwyn, Pennsylvania

May 24, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                               May 24, 2012


             OIG-12-053

             MEMORANDUM FOR THOMAS J. CURRY
                            COMPTROLLER OF THE CURRENCY

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of American Eagle Savings Bank,
                                   Boothwyn, Pennsylvania


             This memorandum presents the results of our review of the failure of American
             Eagle Savings Bank (American Eagle), located in Boothwyn, Pennsylvania, and the
             former Office of Thrift Supervision’s (OTS) supervision of the bank. OTS regulated
             American Eagle until July 21, 2011, when the Office of the Comptroller of the
             Currency (OCC) assumed regulatory responsibility for federal savings associations
             pursuant to P.L. 111-203.

             American Eagle opened in January 1917 under its former name, American Eagle
             Savings and Loan Association. In 1999, the bank changed from a state charter to a
             federal charter, and changed its name to American Eagle Savings Bank. OCC closed
             American Eagle and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on January 20, 2012. At the time of closure, American Eagle had
             approximately $19.6 million in total assets. As of April 30, 2012, FDIC estimated
             the loss to the Deposit Insurance Fund to be $6.2 million.

             Because the loss to the Deposit Insurance Fund is less than $150 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of American Eagle that was limited to (1) ascertaining the
             grounds identified by OCC for appointing the FDIC as receiver and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
             examination for the 5-year period before the bank’s failure, and (3) interviewed
             OCC personnel.

             We performed our fieldwork during February and March 2012. We conducted this
             performance audit in accordance with generally accepted government auditing
OIG-12-053
Page 2

standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Causes of American Eagle’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank was in an unsafe or unsound condition to transact business;
(3) the bank incurred losses that depleted all or substantially all of its capital, and there
was no reasonable prospect for the bank to become adequately capitalized without
federal assistance; (4) the bank was undercapitalized and had failed to submit a capital
restoration plan acceptable to the appropriate federal banking agency within the time
prescribed; and (5) the bank was critically undercapitalized.

The primary causes of American Eagle’s failure were its significant investments in two
mutual funds and inadequate risk management practices. The two mutual funds
primarily invested in mortgage-related financial instruments. Examples of the bank’s
inadequate risk management practices included the board and management’s failure to
(1) fully understand the risks related to the investments purchased, (2) establish
appropriate concentration limits, and (3) analyze and identify the effective cost of the
investments. In 2008, the bank’s situation was exacerbated when it sought to cash-
out its mutual fund holdings. Because one mutual fund holding was unable to fully
redeem the bank’s holdings in cash, the bank received a redemption-in-kind in the form
of non-agency collateralized mortgage obligations (CMO). 1 American Eagle’s board and
management did not (1) demonstrate an appropriate understanding of the CMOs, (2)
react to changing market conditions, and (3) address the declining asset quality of the
investments. Other-than-temporary-impairment charges related to the CMOs
contributed to the bank’s net operating losses. These factors resulted in critically
deficient earnings and capital levels, which ultimately led to American Eagle’s failure.




1
 A non-agency CMO is a type of financial debt vehicle that is not issued by a government-
sponsored enterprise such as Fannie Mae. Legally, a CMO is a special purpose entity that is wholly
separate from the institution(s) that create it. The entity is the legal owner of a set of mortgages,
called a pool. Investors in a CMO buy bonds issued by the CMO, and they receive payments
according to a defined set of rules.
OIG-12-053
Page 3

Conclusion
Based on our review of the causes of American Eagle’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no circumstances surrounding the bank’s failure that would necessitate an in-depth
review. In making this determination, we took into consideration that the federal
savings association functions of OTS, American Eagle’s regulator until July 2011,
transferred to OCC. We provided a draft of this memorandum to OCC management
for comment. In its response, OCC stated that it agreed with our conclusion as to
the causes of the failure of American Eagle and that it had no concerns with our
determination that an in-depth review of the bank’s failure is not warranted. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-12-053

       Attachment 1
Management Response
                                                       OIG-12-053

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
